<html>
<title> - WESTERN HEMISPHERE DRUG INTERDICTION EFFORTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





              WESTERN HEMISPHERE DRUG INTERDICTION EFFORTS

=======================================================================

                                (114-21)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-072 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
BOB GIBBS, Ohio                      CORRINE BROWN, Florida
MARK SANFORD, South Carolina         JANICE HAHN, California
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
CARLOS CURBELO, Florida              JULIA BROWNLEY, California
DAVID ROUZER, North Carolina         PETER A. DeFAZIO, Oregon (Ex 
LEE M. ZELDIN, New York                  Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               WITNESSES

Vice Admiral Charles D. Michel, Deputy Commandant for Operations, 
  U.S. Coast Guard:

    Testimony....................................................     3
    Prepared statement...........................................    30
Rear Admiral Karl L. Schultz, Director of Operations, U.S. 
  Southern Command:

    Testimony....................................................     3
    Prepared statement...........................................    36

                       SUBMISSIONS FOR THE RECORD

Written statement of Michael P. Botticelli, Director, Office of 
  National Drug Control Policy...................................    76



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
              WESTERN HEMISPHERE DRUG INTERDICTION EFFORTS

                              ----------                              


                         TUESDAY, JUNE 16, 2015

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:15 p.m., in 
room 2253, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. This subcommittee will come to order. Welcome 
everybody. The subcommittee is meeting today to review the 
Federal Government's efforts to confront transnational drug 
smuggling and stem the flow of illegal drugs to the United 
States.
    Let me start by saying I had a great trip down in Florida 
with you, Admiral Schultz, great, great time with JIATF [Joint 
Interagency Task Force] and General Kelly, and I got to see 
firsthand the problems that our Nation faces in stemming the 
flow of illegal drugs to our shores.
    My visit to the Coast Guard units as well as JIATF South 
was insightful. I was able to witness the impact limited 
resources and deteriorating assets is having on the Coast 
Guard's ability to effectively carry out its drug interdiction 
mission.
    The flow of illegal drugs to the United States continues to 
be a problem. Illegal drugs placed a strain on our Nation's 
healthcare and criminal justice systems. Their smuggling routes 
and methods are easily translated into transport routes for 
other illicit goods that pose significant safety and security 
concerns to U.S. citizens.
    Some of the most notorious and violent criminals, cartels, 
and narcoterrorists are directly responsible for drug violence, 
crime, and corruption that are destabilizing foreign nations 
and endangering the lives of American citizens here and abroad. 
Representing southern California, I am very aware of the harm 
violent drug traffickers inflict on our communities.
    In recent years, violence stemming from the drug trade has 
spilled over the Mexican border and has led to the kidnappings 
and murders of American citizens and U.S. law enforcement 
officers. It was only a few years ago that a Coast Guard 
servicemember lost his life during counterdrug operations near 
Santa Cruz Island, California.
    Coast Guard Senior Chief Petty Officer Terrell Horne was 
leading a boarding team when he was critically injured 
interdicting and apprehending illegal drug smugglers. The Coast 
Guard recently announced it will honor Senior Chief Horne's 
sacrifice by naming a Fast Response Cutter after him.
    The Coast Guard, U.S. Navy, and allied partner nations 
continue their efforts to stop boat drug shipments at sea. 
Interdicting shipments of drugs at sea before they are broken 
down into smaller packages is the most effective and efficient 
way to stop the flow of illegal drugs across our borders.
    The Coast Guard is the lead agency in maritime interdiction 
because it has unique military and law enforcement authorities 
which enable it to seamlessly disable a drug smuggling vessel, 
seize the drugs, and arrest the crew. But that only works when 
the Coast Guard, SOUTHCOM [U.S. Southern Command], and partner 
agencies and nations have the resources and assets to act on 
intelligence targets.
    Unfortunately, however, cuts to the military's budget, 
sequestration, and aging and rapidly failing Coast Guard assets 
are undermining mission success. In recent years, SOUTHCOM and 
the Coast Guard were only able to interdict slightly more than 
20 percent of the cocaine bound for the United States. That is 
roughly half the national target for 2015.
    In addition, the Coast Guard has been consistently unable 
meet its internal performance goal for drug removal in the 
transit zone. In fact, since 2009, the Coast Guard has only 
achieved its cocaine interdiction target once. I hope today's 
hearing will help clarify the direction we need to take in the 
future to ensure our men and women in uniform have the 
resources and assets that they need to carry out this and other 
critical missions.
    With that, I yield to Ranking Member Garamendi.
    Mr. Garamendi. I thank you very much, Mr. Chairman, and 
thank you for holding the hearing and for the witnesses. It is 
good to see you once again and look forward to your testimony.
    This hearing is very, very important. We need to understand 
our efforts and the effort of our international partners to 
interdict the flow of illegal drugs into the United States from 
points all across the Western Hemisphere.
    At the hearing convened last April, I stressed that the 
current age of budgetary austerity, it remains essential for 
Congress to scrutinize every drug interdiction program to 
ensure that the various Federal agencies involved are best 
coordinating and utilizing their resources to the greatest 
effect in the transit zone. That sentiment is just as valid 
today as we take up this matter again.
    Additionally, I also voice concern about the imminent 
operational gap that the Coast Guard will have to contend with 
its aging legacy fleet of High and Medium Endurance Cutters as 
they are decommissioned or laid up more frequently for 
emergency repairs and maintenance.
    If anything, the recent hearing last month on the Coast 
Guard acquisition activities further corroborate my belief that 
the Coast Guard is going to be extremely hard pressed to 
maintain its existing capabilities, much less increase the 
tempo of their operations, and as you suggest, Mr. Chairman, 
make their bogey, that is, to get the number of drugs that they 
intend to.
    This raises the fundamental question, if the Coast Guard 
operational readiness and capability is likely to be degraded, 
at least until we begin to see the delivery of the new Offshore 
Patrol Cutters, where can we turn now to find the assets and 
resources necessary to plug the hole? Unfortunately, it would 
appear that the Navy is not where we will go. They are scaling 
back the number of frigates and other assets it deploys through 
SOUTHCOM to support the JIATF operations.
    Moreover, despite the fact that the transit zone across the 
Western Hemisphere is roughly twice the size of the continental 
mass of the United States, other bureaus within the Department 
of Homeland Security continue to disproportionately allocate 
resources to reinforce the southern border, notwithstanding the 
data demonstrating that the maritime routes are becoming the 
preferred option for international criminal syndicates, and if 
supplemental resources are not going to be forthcoming soon, 
this leads us back to another fundamental question.
    How can we reasonably expect the Coast Guard and other 
Federal agencies, for that matter, to accomplish their vital 
missions? As I stated at the last hearing: If we want to 
succeed in our efforts to prevent illegal drugs from entering 
our country, we can no longer ignore the fact that inadequate 
Coast Guard budgets have left the Service out on the precipice, 
and until we have resolved the issue of this reality in full, 
we are far more likely to see more illicit drugs, more illegal 
migrants and other harmful contraband crossing our shores.
    Mr. Chairman, I yield back.
    Mr. Hunter. OK. I thank the gentleman.
    And before we introduce our witnesses today, I would like 
to introduce some gentlemen that just came in, World War II 
merchant mariner veterans. I just want to say thanks for being 
here, gentlemen. Appreciate it.
    In fact, we are trying to get ahold of Ms. Janice Hahn, who 
has been carrying your legislation, our legislation now for 
quite awhile, and I just want to let you know that we are 
working on it, so thanks for being here. Appreciate it.
    Our first witness today is Vice Admiral Charles D. Michel, 
the Coast Guard's Deputy Commandant for Operations. Vice 
Admiral, you are now recognized.

TESTIMONY OF VICE ADMIRAL CHARLES D. MICHEL, DEPUTY COMMANDANT 
  FOR OPERATIONS, U.S. COAST GUARD; AND REAR ADMIRAL KARL L. 
     SCHULTZ, DIRECTOR OF OPERATIONS, U.S. SOUTHERN COMMAND

    Admiral Michel. Sir, before I start my statement, with the 
committee's permission, if I could just take a couple of 
minutes to talk about a breaking news item.
    Mr. Hunter. Absolutely.
    Admiral Michel. Sir, this is a picture of a semisubmersible 
that the U.S. Coast Guard interdicted this morning in the 
eastern Pacific. It was interdicted at first light by one of 
our Coast Guard units, and our Coast Guard units are on board. 
They have control of the vessel. They also have four detainees 
on board, and it is estimated 3,000 kilos of cocaine, or 3 
metric tons of cocaine are on board this vessel.
    We will have to pull it off to actually count it, but that 
is what the initial estimates are. As you can see--and I will 
pass around the picture of this vessel. This is a classic 
semisubmersible. It is about 50 feet in length. You can see the 
water-cooled exhaust that they put in place here to keep heat 
sensor detection down. You can see that it is painted to match 
the color of the ocean. It is almost undetectable. I will pass 
this around.
    I can't answer any specific details in the open forum here, 
but after the hearing, I am happy to talk to you about the 
details of this interdiction, but this is what we are facing 
today, sir, and this was taken down this morning.
    Mr. Hunter. Way to go.
    Mr. Garamendi. Congratulations.
    Admiral Michel. Well, sir, congratulations to the Nation, 
and this is really a whole of Government team, including JIATF 
South that was engaged in this. It was the Coast Guard that 
took it down, but there is a lot more going on there than just 
the Coast Guard.
    So with your permission, I would begin my statement.
    Mr. Hunter. Please.
    Admiral Michel. Chairman Hunter, Ranking Member Garamendi, 
members of the subcommittee, thank you for the opportunity to 
testify today on Coast Guard drug interdiction operations. My 
complete statement has been provided to the subcommittee, and I 
ask that it be entered into the record and that I be allowed to 
summarize my remarks.
    Mr. Chairman, we continue to face a significant threat from 
transnational criminal organizations in the Western Hemisphere 
that use drug transit routes to the southern approaches of the 
United States. These illicit networks are advancing their 
deadly trades with coercion, intimidation, violence, and near 
impunity in our closest neighbors and in our border regions. 
Transnational criminal networks destabilize our neighbors, 
exploit our citizens, endanger public health, and threaten 
regional stability, and national security.
    Last summer's influx of over 50,000 unaccompanied children 
was a tragic symptom of the region's instability and violence. 
Parents by the tens of thousands decided that it was better to 
turn their children over to human traffickers, who we call 
coyotes, for a chance of life in the United States rather than 
to live in countries wracked by some of the world's highest 
homicide rates resulting from transnational organized crime.
    In September of 2014, Admiral Zukunft signed the Coast 
Guard's Western Hemisphere strategy that calls out three 
strategic priorities: combatting networks, securing borders, 
and safeguarding commerce. This strategy recognizes that the 
Coast Guard is uniquely positioned to attack a key center of 
gravity of transnational criminal networks.
    The unmatched capability of maritime interdiction allows 
for the interdiction of concentrated, often multiton loads of 
expert quality drugs at sea before they can reach land and be 
broken down into small quantities that not only become 
extremely difficult to police but also cause death and 
devastation as they make their way to North American markets.
    The cocaine trade, in particular, is uniquely vulnerable as 
the existence of the Darien Gap means that virtually all 
cocaine exported from South America must at some point during 
its journey travel by air or maritime means. This movement 
exposes conveyances to sensors and interdiction.
    In addition, maritime interdiction often allows for the 
assertion of U.S. jurisdiction over the witnesses and evidence 
vital to identifying and attacking transnational criminal 
organizations closest to the head of the snake. Maritime 
interdiction against mostly go-fast boats, however, typically 
require sophisticated detection monitoring techniques in vast 
ocean spaces and an endgame carried out by flight deck-equipped 
cutters with embarked day/night airborne-use-of-force 
helicopters.
    Coast Guard ships are the Nation's and our neighbors' 
defense forward against the transnational criminal threat 
beyond our land borders, beyond Mexico, and beyond Central 
America. When we detect a suspect vessel, our cutters, 
helicopters, and highly trained pursuit boat crews have a 
nearly 90-percent interdiction success rate.
    Over the years, our operations have become extremely lean 
and efficient with the vast majority of interdictions happening 
as a result of intelligence cueing. In the last month alone, 
the Coast Guard has been involved in 22 counterdrug cases that 
have resulted in the arrest of more than 50 suspects, the 
removal of more than 12 metric tons of pure uncut cocaine on 
the sea, and that does not include this interdiction that I 
showed you this morning, sir. And denial to criminal networks 
of more than $400 million wholesale in drug proceeds.
    While we have made substantial improvements in our tactics, 
techniques, and procedures, resource constraints leave us able 
to target only 37 percent of the high-confidence intelligence 
cases, almost always due to a lack of surface vessels.
    To close this gap, the Coast Guard has undertaken four 
specific initiatives. We have increased our offshore presence 
to interdict drugs at sea, the initial results of which are 
encouraging. We have continued to build upon the 43 
international maritime law enforcement bilateral agreements and 
work closely with the Department of State and our international 
partners in these interdiction efforts.
    We are fully integrated in in Secretary Johnson's vision 
for unity of effort and the DHS [Department of Homeland 
Security] task forces to secure America's southern border and 
approaches, and we continue to move forward with the 
acquisition of the affordable Offshore Patrol Cutter.
    Recapitalizing the medium endurance cutter fleet with the 
OPC [Offshore Patrol Cutter] is the Coast Guard's number-one 
investment priority and is critical to our offshore presence 
and core missions. By the time we begin laying the keel for the 
first OPC, some of the legacy cutters they are scheduled to be 
replace will be more than 55 years old, well beyond their 
intended service life.
    The time to recapitalize the fleet is now, and we are on 
schedule to award OPC detailed design in fiscal year 2016. In 
summary, the Coast Guard continues to exploit the unique 
benefits of maritime interdiction to combat transnational 
criminal networks. This forward defense of the Nation and the 
region applied at a critical center of gravity for 
transnational criminal networks requires highly specialized 
maritime assets and crews that are capable of countering a 
well-equipped, adaptable, and ruthless adversary.
    Thank you for the opportunity to testify before you today 
and for all you do for the men and women of the United States 
Coast Guard. I look forward to hearing your concerns and 
questions. Thank you.
    Mr. Hunter. Thanks, Admiral.
    Our next witness today is Rear Admiral Karl Schultz, the 
Director of Operations for U.S. Southern Command. You are 
recognized, Admiral.
    Admiral Schultz. Chairman Hunter, Ranking Member Garamendi, 
members of the committee, thank you for the opportunity to 
appear before you today on behalf of General John Kelly, 
commander, U.S. Southern Command. I look forward to discussing 
how the U.S. Southern Command works with the Coast Guard to 
defend the southern approaches to the United States.
    Every day, our southern approaches are under direct assault 
by sophisticated criminal networks whose smuggling operations 
reach across Latin America and deep into the United States. 
These groups exploit every land, sea, and air border to traffic 
drugs, people, and weapons throughout the Western Hemisphere 
and beyond. Their corrosive activities pose a direct threat to 
our national security and the stability of our partner nations 
in the region.
    Mr. Chairman, it will take a network to defeat a network, 
which is exactly what SOUTHCOM, the Coast Guard, our 
interagency, and international partners are building through 
multinational counterdrug operations, and capacity-building 
efforts in Central America, South America, and the Caribbean 
Basin.
    As you know, the Department of Defense has a 
congressionally mandated statutory responsibility for the 
detection and monitoring of illicit drugs in the air and 
maritime domains. Our Joint Interagency Task Force South 
executes this responsibility working with agencies from the 
Department of Homeland Security, the Justice Department, the 
Department of State, and partner nation defense and security 
forces to disrupt illicit trafficking and dismantle criminal 
organizations.
    JIATF South has long been the gold standard in leading and 
orchestrating successful interdiction operations. Last year, 
the JIATF South team supported the disruption of 158 metric 
tons of cocaine. That is 76 percent of the total amount of 
cocaine seized by all U.S. Government agencies.
    JIATF South's continued success, however, could be in 
jeopardy. Due to other global defense priorities, limited 
Department of Defense resources are available to source the 
counterdrug mission, and we have been forced to rely heavily on 
Coast Guard support, including their personnel, aircraft, and 
cutters.
    Come this September, the U.S. Navy will have a minimal 
presence in the SOUTHCOM area of responsibility. Mr. Chairman, 
for all intents and purposes, the Coast Guard is U.S. Southern 
Command's Navy, which is why we share and echo the Coast Guard 
Commandant's concern over the Coast Guard's ability to sustain 
its aging fleet while recapitalizing its fleet of Fast 
Response, Offshore, and National Security Cutters.
    As an economy-of-force geographic combatant command, we at 
U.S. Southern Command are concerned by the limited availability 
of Department of Defense assets, including U.S. Navy frigates, 
airborne ISR [intelligence, surveillance, and reconnaissance], 
and national technical means to support our missions. For both 
the Department of Defense and the Coast Guard, asset shortfalls 
and potential asset failures are the greatest threats to our 
ability to defend the United States against the relentless 
onslaught of transnational criminal activity and illicit drugs.
    Finally, I will close by noting that the possible return of 
sequestration would be disastrous for the counterdrug mission. 
It will undermine our ability to remain engaged with our 
partners, undermine our awareness of threats in the region, and 
undermine our ability to stop them before they reach our 
shores. I look forward to discussing these and the other issues 
with you. Thank you.
    Mr. Hunter. Thank you, Admirals.
    I am going to start by recognizing myself, and then the 
other Members for questions. I guess my first question is, if 
you take the Department of Justice, and you take the Department 
of Homeland Security, and you basically take everything else 
that is under that umbrella, including the DEA [Drug 
Enforcement Administration], the FBI [Federal Bureau of 
Investigation], local police forces for everything, you can 
probably guess, do you have a number for how much they spend on 
drug interdiction to get to that 24 percent of the total annual 
amount?
    So if you take--if you interdict 76 percent, it leaves them 
with 24 percent, I am just curious about the money spent for 
each one--each bang for the buck there.
    Admiral Michel. Those figures are available. I don't have 
them, but I can provide them on the record. There is a question 
for the record.
    Mr. Hunter. Could somebody on the committee just Google 
that maybe while we are doing this? Let's just find out what 
the number is. If you can get all the other--I am just curious.
    Admiral Schultz. What I can tell you, Mr. Chairman, from a 
DOD [Department of Defense] perspective, about $25 billion goes 
into the drug budget, writ large. About $5 billion of that is 
allocated; about $3.7 billion across for interdiction efforts; 
I think $1.2 billion or $1.3 billion for international efforts; 
about 20 percent of that drug budget goes towards what I call 
the JIATF South world to work there. JIATF South consumes about 
1.5 percent of that $25 billion budget, to give you a sense. I 
can't speak to the other agencies to your specific question 
but----
    Mr. Hunter. That is just DOD?
    Admiral Schultz. Well, the JIATF South piece of DOD of the 
$25 billion total drug budget is sort of how those numbers 
shake out.
    Mr. Hunter. But the DOD total drug budget is about $25 
billion.
    Admiral Schultz. That is the U.S. Government----
    Mr. Hunter. Oh, that is the entire. That is the whole 
effort.
    Admiral Schultz. Entire drug budget, across the U.S. 
Government, writ large, yes, sir.
    Mr. Hunter. All right. Makes sense. Let's go really quick 
to interdiction performance because I--we talked about this the 
last hearing we had. We got into how the standard gets raised 
or lowered kind of based on every year going forward, and the 
baseline can get moved as well, which makes it hard for us to 
figure out where the real baseline was or is and where you 
really come from where you were, right.
    I do know that you said JIATF South, they increased their 
hits last year, right, meaning your average take was--you were 
hitting 20 percent. Now it is more towards 30 percent?
    Admiral Schultz. Sir, JIATF South is currently targeting 
about 36, 37 percent of the known activities. You know, if you 
get down to the success metrics, that is a different set of 
numbers, but we are targeting about----
    Mr. Hunter. But you are up over last year.
    Admiral Schultz. Up over last year, and then when you look 
at--after you target them, the next step would be how do you go 
about detecting and monitoring them. We detect and monitor 
about 70 percent of what we target, so start with a number say 
1,250, you look at about one-third of that, and then within 
that, about 70 percent of those, you are actually putting 
detection and monitoring assets against.
    When we go out there and fly a Maritime Patrol Aircraft 
against a target, we are successful--a very high preponderance 
of an endgame--almost 90 percent of those that we target and 
then detect, we actually get a disruption or a seizure at the 
end of the day.
    Mr. Hunter. So it is not possible, though, for the--for 
JIATF South's interdiction percentage to go up and the Coast 
Guard's, their numbers, or their goals met to go down, is it?
    Admiral Schultz. Sir, our numbers at SOUTHCOM and JIATF 
South are inextricably linked to the Coast Guard's numbers. I 
mean, come this fall, the Coast Guard essentially is the only 
U.S. Government ship-providing game in the business here. We 
will have some PC-179 patrol craft from the Navy, but it is a 
Coast Guard game. As I mentioned in my opening statement, the 
Coast Guard is SOUTHCOM's Navy moving forward.
    Mr. Hunter. OK. So then my last question then is, so tie 
those together. How could the Coast Guard reduce performance 
target for cocaine, let me see, from 18.5 to 13.8 percent in 
fiscal year 2015, so how can yours go down then as SOUTHCOM's 
go up?
    Admiral Michel. I am not sure exactly.
    Mr. Hunter. Or am I missing----
    Admiral Michel. Well, there is--it is a little more 
complicated than that. So JIATF South supports disruption of 
cocaine not only by the Coast Guard but also by other U.S. 
Government agencies as well as foreign partners, so they may 
assist the Government of Colombia or the Government of Canada 
or the U.K. or the Dutch or the French who contribute ships to 
this effort as well as the Central American partners, so they 
have got a broader scope than the Coast Guard.
    The Coast Guard itself is supported by JIATF South, and our 
numbers have been pretty consistent, and it looks like ours is 
just a matter of ship effort. So we have already--last year we 
interdicted 91 metric tons of cocaine. That is what the Coast 
Guard was actually able to interdict. So far this year, just to 
date in this fiscal year, we are at 83 metric tons, not 
including the 3 that were on this semisubmersible, and we have 
still got 3 months of the year left to go.
    So we are going to up our numbers, if I were guessing on 
trajectory here, probably up to 110, 115 metric tons when we 
get done here.
    Mr. Hunter. And again, this is your--your performance 
targets are a percentage of the whole that you know about? What 
is it a percentage of?
    Admiral Michel. So the removal rate is based on--the 
numerator is the amount of known cocaine removed from the 
system, and the denominator is the U.S. Government's best 
estimate on the amount of flow that moves through the Western 
Hemisphere Transit Zone, and their confidence factors that go 
in there. It is based on production estimates, so you know, 
over the imaginary of cocoa fields and things likes that, plus 
known interdicted events with a certain degree of confidence, 
and then the Coast Guard is accountable for a portion of that.
    Last year was 13.9 percent of that Western Hemisphere 
Transit Zone that the U.S. Coast Guard was accountable to get, 
and we got about 9 percent. And the long pole in the tent there 
is just simply numbers of ships. There was more actionable 
intelligence that would have allowed us to meet the goal down 
there, but we didn't have the ships to be able to do it. It is 
a pretty simple story.
    Mr. Hunter. OK. And to be clear again then, that is a 
percentage of the known flow, not the number of ships you are 
able to send out to interdict, right?
    Admiral Michel. That is correct. The removal rate is based 
on the known flow, and the USG [U.S. Government] target, writ 
large, USG was 36 percent of that flow was the entire USG 
target of which the Coast Guard is responsible for 13.9 percent 
of that.
    Mr. Hunter. OK. Thank you, Admiral. I yield to the ranking 
member.
    Mr. Garamendi. I thank you, Mr. Chairman. Actually three 
sets of questions. Now the first is on assets, the availability 
of the Coast Guard, how do you intend to bridge the gap if the 
Navy is pulling out and the Offshore Patrol Cutters are not, 
for another 2 years, assuming that they are actually going to 
wind up in that area, how do you intend to bridge the gap? That 
is one question. Let us deal with them one at a time, and then 
you won't have to write notes about the questions. So Admiral 
Michel.
    Admiral Michel. Well, sir, that is the rub, ultimately, and 
our Commandant made an affirmative decision to increase our 
number of ships that we commit to the JIATF South effort in the 
Western Hemisphere Transit Zone by over 50 percent, and he did 
that by taking risk in additional Coast Guard mission sets.
    I don't want to talk too much about that in this forum 
because some of that involves LE, law enforcement presence in 
other vectors, but the Commandant took a calculated risk 
because he felt the need to commit resources to that area to 
provide for regional stability and national security because 
those countries down there are really in a fight in addition to 
all the impacts that they have here.
    So the way that we are bridging that gap is we are 
providing the best quality ships we can provide down there, 
which is our National Security Cutters, which have the best 
sensor capabilities, the best day/night AUF [airborne-use-of-
force] capability, which the Commandant has also plussed that 
up on our commitment of the airborne-use-of-force capability, 
which is critical to stop the go-fast boats, which is about 80 
percent of the traffic moves on go-fast boats.
    The other part is to continue to develop our intelligence 
mechanisms that will allow us to get at that other 30 percent 
that Admiral Schultz talked about there that we target but we 
can't detect because of lack of wide area surveillance or other 
type of intelligence capabilities, the ability to buy that 
down, and then trying to use every type of TTP [tactics, 
techniques, and procedures] and asset that we have, whether it 
is from a helicopter or pursuit boat to ensure that when we get 
those detected assets, that we are actually able to interdict 
then. And then we are waiting for the new assets the come 
online, sir.
    Mr. Garamendi. So we have got about a 2-year, maybe a 3-
year period of time here in which it is going to be touch and 
go. What are the role of the other countries in the area? You 
mentioned Colombia, the Coast Guard, Colombia's Coast Guard, 
Panama, and so forth. Would you speak for a few moments about 
that?
    Admiral Michel. Yes, sir. Well, a number of countries down 
there have some good capabilities. Mexico, for example, has 
really good capabilities, and Colombia has good capabilities as 
well. Most of the other partners have very dedicated people but 
very small boats and essentially no detection and monitoring 
capability.
    When I was JIATF South Director, for the majority of the 
Central American partners, we had to actually commit an 
aircraft to walk a go-fast boat onto their small craft because 
they had no radar, they had no detection capability at all, and 
probably won't have any for a long time. So they are committed 
forces and well-trained people, but they are not very well-
equipped.
    There are other partners down there that do have good 
equipment, the French, the Dutch, the Canadians, the U.K. have 
had ships in the area and continue to work in the area, and 
those are obviously high-end quality ships, and we try to use 
those as much as possible. So you have got kind of a mixed bag 
on the local partners.
    I will say this about most of the local partners. They also 
have no real prosecution back end. So one of the critical parts 
about getting U.S. jurisdiction is the ability to exploit those 
cases for intelligence value to allow you to identify the 
networks and feed the intelligence cycle, and some of the 
partner nations, the people go in there, and we are not sure 
exactly sort of what happens to them, but we are not able to 
get intelligence value from them, sir.
    Mr. Garamendi. Let's continue on with the other countries. 
There has been talk of a billion-dollar foreign aid program for 
the triangle countries in Central America, and that is part of 
this puzzle, it would seem to me. And also, how do you interact 
in the training programs that apparently are going to be 
diminished?
    Admiral Michel. I will talk about mine, and then SOUTHCOM 
also has a large piece in this. Yes, there is a billion-dollar 
piece, and a chunk of that, about one-third of it is for 
security-related pieces. The Coast Guard actually plays in all 
the different areas, security, governance, and prosperity 
because of our port security work, our work with the legal 
teams that we send down there to make sure that they have got 
adequate laws and things like that to take care of maritime 
trafficking.
    But we have mobile training teams that we put into place 
down there who work on them on outboard motor maintenance or 
working on their communications capability, try to train them 
to maintain their equipment and how to do law enforcement. We 
have also stood up for the first time our support to 
interdiction and prosecution teams which are composed of a 
Coast Guard investigative service agent as well as some of our 
maritime law enforcement experts who work with the Central 
American countries to try to ensure that they can take that 
interdiction that we help them with and they can bring it into 
their court system and provide the witnesses and evidence to 
actually gain prosecutions as well as gain the intelligence 
value from the cases.
    Mr. Garamendi. You have been doing about 2,000 students a 
year. Are you going to be able to maintain that, given the 
budget cuts?
    Admiral Michel. Sir, my understanding is that the training 
money for the foreign nationals is on track, and part of that 
money comes from the Department of Defense and State 
Department. The Coast Guard has no organic foreign affairs 
authority. Most of the work that we do with foreign nations is 
done at somebody else's request, so it is funded through either 
State Department or DOD, typically under their programs.
    Mr. Garamendi. And finally, if I might, Mr. Chairman, the 
issue of unmanned vehicles both on the water or under the water 
and in the air. What efforts are you making to work with the 
military or others and your own efforts on these unmanned 
vehicles?
    Admiral Michel. So from a Coast Guard perspective, we have 
fielded right now the small unmanned aerial systems, the 
ScanEagles, and they are on a number of our cutters, including 
our National Security Cutters, and we operate those now. We are 
also a partner with CBP, Customs and Border Protection, in 
their Guardian unmanned aerial system program, which is 
essentially Predator B, a marinized Predator B, and we have 
worked with them, and they have actually deployed the Guardian 
down there into JIATFS AOR [Area of Responsibility], both in 
the Dominican Republic and also out of Comalapa, which is a 
cooperative security location in El Salvador.
    The Coast Guard is actually making its determination now as 
to where we want to place our investments in this very dynamic 
unmanned aerial system, you know, whether we would want to go 
with a shipped-based system, which has some attractiveness but 
you got to be able to recover it, or whether we use a long-
dwell, land-based system, and what type of sensor capabilities 
and back-end processing piece would we need in order to do 
that.
    But we work hand in hand with the Department of Defense, 
and that is one of the great advantages the Coast Guard brings 
to the table is we have got all the connections with DOD to try 
to learn the lessons before we sort of make the big jump on 
unmanned aerial systems.
    Mr. Garamendi. I for one, and I suspect the rest of my 
committee colleagues here, would like to be kept abreast of 
your plans with regard to these vehicles; also, how you will be 
collecting and analyzing the data.
    Admiral Schultz. Congressman, just on the UAS [unmanned 
aerial system] piece from a DOD perspective, to echo Admiral 
Michel, absolutely. We continue to use the Predator when it is 
available. You know, I would say the maritime solution for the 
UAS, as sophisticated it is in the land domain, what we have 
seen in the Middle East area. We are not quite there over the 
water, and there is some limitations in terms of where you can 
operate that, in terms of it is almost essentially a tether to 
it. You have to have a ground-based radar or shipboard radar, 
but we are very interested in how do you advance that, how do 
you bring those capabilities into the theater.
    We do use a Global Hawk for some ISR responsibilities, 
capabilities, capacity in our AOR. We get that on a couple-of-
mission-a-month basis, but we are employing them as well. Not 
specifically in the maritime domain but in the SOUTHCOM 
equities.
    If there is a second, sir, to go back to just the country 
team participation, the question you asked there. From U.S. 
Southern Command's perspective, you know, we have almost 6,000 
to 8,000 soldiers, sailors, airmen, coastguardsmen in the 
SOUTHCOM AOR on a day-to-day basis. I would say the bulk of 
their effort down there is along supporting the transnational 
organized crime, combatting that mission set.
    So in Guatemala, we have the interagency task force at the 
Mexican-Guatemalan border. There is one in the--that they are 
working on on the Honduras side. There is one down in the 
southern part of Guatemala. The plan is to build out a couple 
more of those task forces. We have got about $15-$17 million 
invested towards that. That is to help the Central American 
countries establish some border security within their own 
domain.
    Between us and INL [Bureau of International Narcotics and 
Law Enforcement Affairs], we are putting a lot of--while some 
of the countries that Admiral Michel mentioned don't have a lot 
of big ship capability, there is some patrol boat capability, 
and then there is--we, with INL, are both buying interceptor-
type boats, so while we may not have a ship--and again, there 
is no replacement for a Navy ship, no replacement for a Coast 
Guard cutter, but what we do do is bring some endgame 
capability. If an aircraft can traffic a vessel in, we have 
some pretty sophisticated interceptors, Boston whalers, we have 
them in the Dominican Republic, we have them in the Central 
American countries.
    Some countries prefer that we retake some refurbished 
former seized boats, eduardonos, which is a local domestic boat 
down there. And then we have got a special purpose Marine Air-
Ground Task Force operating with 250 Marines in Honduras in the 
sort of ungoverned spaces in the northeast coast right now.
    So we have got a lot of building partnership capacity stuff 
going on, and your question was Central America focused, so I 
kind of constrained myself there, but on a day-to-day basis, we 
are training, we are equipping things like night-vision 
goggles, just essentially helping them bring governance to 
regions where there are very little of that today, and that 
really props up the security part of the equation.
    Mr. Garamendi. Thank you. I yield back, Mr. Chairman. Thank 
you for the extra time.
    Mr. Hunter. I thank the gentleman.
    The gentleman from South Carolina is recognized.
    Mr. Sanford. Thank you, Mr. Chairman. I guess what I would 
like to do for one second is go up 30,000 feet, and so this is 
not a commentary on how hard your men and women are working, 
the quality of their efforts, the hardiness of their pursuit, 
but really a macro question, because I remember being in 
hearings like this the last time I was in Congress. I remember 
going down to Howard Air Force Base, and I remember at that 
time there wasn't enough money in drug ops to send up an AWACS 
[airborne warning and control system] every day of the week, 
and so they would send one up once a week, once every 2 weeks.
    And then the smart drug runners, they simply paid for a 
spotter, when the plane goes up that has the big dish, let us 
know, and then like the really stupid guys, the uninformed 
guys, they would still send a boat running north, and you would 
look at these films out of an F-16 in pursuit of the boat, they 
are throwing the drugs out of the boat, and once the boat is 
emptied, they would turn around, you burned a bit of jet fuel, 
you got a good video, but that was about it, and it was sort of 
catch-and-release.
    In contrast, I remember at that time, as part of our 
payments to Peru in the drug ops war, they had a shoot-down 
policy, and I remember watching videos of planes actually being 
shot down in Peru. And so it just seems to me that in war, it 
is either war or it is not. And what we have had for a long 
while in this country is sort of a middle ground when indeed 
you and the Navy and others do their duty. But in terms of 
actual result, really there isn't that much in the way of 
result.
    I mean, any time you look at equation wherein 75 percent of 
what you are trying to stop is going through, then about 25 
percent you are stopping, I mean, you have to question the 
validity of spending, you know, $25 billion, 6,000 folks, as 
you just mentioned, in this effort, in terms of result. And you 
look at how scarce dollars are in the American system, how much 
scarcer they are going to get going forward. I mean, Alan 
Simpson and Erskine Bowles, their point was the most 
predictable financial crisis in the history of man is coming 
our way, given the squeeze financially that we are going to be 
in as a country. And therefore we have, I think a requirement, 
whether in this committee or any other committee, to fund those 
things that actually work.
    And so this is not about, again, the validity of your 
effort, you guys are working hard, but at the end of the day, 
the end results, I found wanting, and in contrast, one more 
data point. I remember being down on a drug ops trip, again, 
last time I was here, and there had been like 4,000 judges 
killed in the country of Colombia. I mean, it was all out war 
down there, and so I--you know, I just really begin to 
question, are we doing anything? What is your thought on that?
    Admiral Michel. Well, let me just take a quick stab. So 
when I first started in the Coast Guard in the mid-1980s, I was 
actually assigned on a patrol boat out of Fort Lauderdale, 
Florida, and I would chase go-fast boats laden with cocaine 
right there into Miami Harbor, and those were the days of the 
Cocaine Cowboys where Miami was really on the brink. Those were 
the days of the shootout of the Dadeland Mall and all those 
things, and I can tell you, sir, we are a long ways from those 
days.
    We have chased those guys back down through the Caribbean. 
They are still there but not in the numbers that they were back 
in those days, and now they are in Central America. There is a 
huge amount of progress that has been made. We interdicted----
    Mr. Sanford. No, we just moved the border. I mean, you say 
the Bahamas, you couldn't take a trip in the Bahamas without 
worrying about pirating in the Bahamas. You don't have to worry 
about pirating these days.
    Admiral Michel. And the reason that is, sir, is because of 
the efforts that we put in place here. It is the same reason 
that the country of Colombia is actually a productive and 
advancing country when it almost was a basket case at one 
point. So we have made tremendous progress. Is there a lot more 
work to do? Yes, sir, there absolutely is a lot more work to 
do, but for anybody to say we have not made measurable progress 
on this, I think, is misinformed.
    Mr. Sanford. Well, in terms of volume of drugs coming into 
this country, we haven't really moved the needle there.
    Admiral Michel. Well, sir, we continue to have that because 
we continue to want to trade with the world. If we decided to 
completely shut down our borders to all trade, we probably 
could stop this trade, but we try to balance that out----
    Mr. Sanford. And I would reverse it.
    Admiral Michel [continuing]. With our law enforcement 
efforts with other society desires.
    Mr. Sanford. What I would respectfully submit is that when 
in the history of man has supply not met demand?
    Admiral Schultz. Congressman, I would just offer, I think 
if General Kelly were sitting here, he would tell you our 
country's insatiable appetite or demand for drugs has sort of 
put the region, what we call the transit zone, the Central 
American countries as sort of the meat in the sandwich between 
the Indian Ridge and producers. I think we have an obligation 
to aid and probably be part of the solution set here.
    I would make an analogy to speeders on the highway. I have 
teenage drivers. I know there's a lot of speeders on the 
highway. I know there's not a lot of police officers out there, 
but I go to sleep at night knowing there's some police officers 
that keep some semblance of order out there, and I would say in 
the drug war, the transnational crime combatting efforts is 
sort of, you keep the lid on it. What we are here telling you 
with more effort----
    Mr. Sanford. Or does it do the reverse?
    Admiral Schultz [continuing]. You stop more.
    Mr. Sanford. Does it raise the profit margin?
    Admiral Schultz. Sir, I would say if you look at domestic 
cocaine use in this country, it is at a low that it's been in 
recent years, prices are fairly high. I think the efforts that 
the men and women that are fighting this fight, both from U.S. 
Government forces, from international partners, from partner 
nations, are having an impact there. Again----
    Mr. Sanford. Some people say it is based on demographics, 
the fact that our country is aging, and the fact that somebody 
in their 50s may not be wanting to do what they were doing in 
their 30s or their 20s.
    Admiral Schultz. Yes, sir. I think we have got kind of an 
emerging epidemic with heroin use right now, and you know, I 
think with 8,500 deaths in this country here in the last year 
alone from heroin use, I think folks are seeing folks in places 
like New Hampshire where you didn't think you had drug problems 
before, and parts of Kentucky where that is cropping up. And I 
think how we get our arms around that, I guess you could say 
you stop going after that or maybe we need to look at the fact 
that 45 percent of that heroin comes out of Mexico, 45 percent-
plus is coming out of South America.
    Almost all of it now is coming out of this hemisphere 
through the same networks that the cocaine is coming up from, 
sir. So I don't disagree with you, but there is a lot of ways 
at looking at this, this challenge.
    Mr. Sanford. Understood. Understood. And again, I am not 
belittling in any way your efforts. I am just struggling with 
the overall aggregate in terms of numbers and the way in which 
this war--I remember seeing the statistics, the body bag 
counts, if you will, back when I was in high school, and us 
walking through those same body bag counts in terms of this 
much cocaine procured, this much marijuana stopped, but at the 
end of the day in a lot of small towns across America, somebody 
being able to buy whatever they want in some, you know, corner 
of town, and which says to me, obviously, we still have a 
problem.
    I see I burnt through my time, though. Thank you, Mr. 
Chairman.
    Mr. Hunter. I refuse to be yielded to until the--is the 
gentleman suggesting that we do what?
    Mr. Sanford. That is the $94 question, and I really 
appreciate the chairman putting me on the spot like that. But I 
guess what I am struggling with, in watching this for a long 
number of years is do you spend more money and more time in 
affecting demand as opposed to trying to curtail supply. I 
mean, I think that is the big economic question out there, and 
that is ultimately not one that you all will resolve.
    You are doing your duty, you are doing your part, that 
which you are charged, so I admire your work, but I think that 
is the $94 question we got to ask as a society is do we do 
something more. And again, a lot of this ties into stuff that 
is well beyond any of our pay grade, straight to the notion of 
family formation, a lot of other things that impact demand, 
poverty, you go down the list, but I think at the end of the 
day, the societal question we got to get our arms around is 
supply always equals demand.
    I remember reading in National Review, James Buckley, who 
is by no means a liberal, saying the war is lost. That was the 
front page of the National Review way back when, and he made 
the case, in that case for liberalization and for legalization 
and zombie farms out West. You would have some number of people 
lost in either equation, and do you look at it a different way.
    I don't know what the answer is, but I think that is the 
question we got to answer that ultimately is beyond your pay 
grade, and I suspect it comes down to the pay grade of the 
Americans--you know, and civilian population decide how do we 
address this problem.
    Admiral Schultz. Congressman, I think both of us would tell 
you, we have sort of run our careers in parallel tracks over 
more than 6 years together. There is a balanced approach, you 
probably need both, but interdiction, I think, is clearly part 
of that equation.
    Mr. Sanford. I am less and less certain of that than I was 
20 years ago.
    Mr. Hunter. I thank the gentleman. And I would add, too, it 
is as much about drugs as it is--because you can get anything 
through the drug route that you can get drugs through, whether 
it is a weapon of mass destruction, whether it is weapons, 
whether it is some kind of chemical agent, the exact same 
routes that the drug smugglers take, the other bad guys who 
want to come in here take, too.
    Mr. Sanford. My take, Mr. Chairman, is if you lined up a 
couple of Marines on the border, it would take care of the 
problem.
    Mr. Hunter. Probably true. I would agree with that.
    The gentlelady from Florida is recognized.
    Ms. Frankel. Thank you. Interesting discussion. I am going 
to follow up on that, but just first, quick question is, it 
sounds like what you are saying here today is that you need 
more assets to do a more effective job. Are the new assets, is 
it new technology or is it more of the assets that you have and 
you just need more of them?
    Admiral Michel. It is a combination of both, ma'am. There 
is a certain quantity that is necessary to get the work done. 
On average, a major ship from either the Coast Guard or the 
Navy working for a year gets 20 metric tons of cocaine, which 
is a huge quantity of cocaine per ship, but each one of those 
ships can become more effective if you have more advanced 
sensor capabilities which allow them to find things like the 
semisubmersible.
    I know you didn't see the picture of it, but we actually 
interdicted one of those this morning. I am sure they will 
share the picture of that with you and how difficult that is, 
and also the techniques for actually interdicting. So the 
airborne use of force which allows us to take on the go-fast 
boats. So it is a combination of both quantity, the number of 
ships that limit our ability to target, and then the better 
quality of the ship that allows it to have a better chance of 
detecting and interdicting that capability. It is a combination 
of both, ma'am.
    Ms. Frankel. Thank you. I now want to just follow up on Mr. 
Sanford's. I thought it was interesting questions you had. I 
will just say it in a commentary. I think we spend $310 million 
a month in Iraq and Syria, and I think that a lot of people are 
questioning that. But I would like you, if you could, in that 
context, I would like to hear you make the argument as to the 
national security argument. That's what I would like you to 
have a little more detail on, why you feel your mission is so 
important, how it affects our national security?
    Admiral Schultz. Congresswoman, I would say, and I think 
Chairman Hunter sort of opened up this dialogue. You know, 
General Kelly's first and foremost duty as a combatant 
commander for U.S. Southern Command is protecting the southern 
approaches to the United States for the security of this 
Nation. These same networks that allow drugs, you know, to the 
tune of--there's about 1,050 tons of cocaine that come out of 
the Indian Ridge, the sole cocaine producing region of the 
world on an annual basis, about 60 percent--660 tons comes to 
the United States.
    It is the same networks that move those drugs, that move, 
you know, trafficking and women to the tune of 18,000 or so, 
moving cash both ways, weapons, illegal migrants, special 
interest aliens, we saw upwards of 500,000 illegals last 
summer, a subset of 50,000-plus children, those are very 
sophisticated networks. These organizations are well financed, 
they are highly adaptive, and it doesn't take a lot of 
imagination to think the same network that could move cocaine 
could move, you know, a component to a weapon of mass 
destruction or something else. They can move an Ebola patient. 
You name it. The networks are sophisticated.
    You know, my boss sometimes makes analogies. It is like a 
FedEx operation. So when you think about the maritime 
interdiction of drugs and cocaine is what we are specifically 
talking about here, you know, we can get the bulk loads of 
3,000 kilos, you know, upwards of 7,000 pounds in one seizure 
at sea, when that ship offloads that to a couple of fast boats 
off of Guatemala or Mexico and it gets into the land border and 
gets broken down into small loads and coming across the border 
in the grille of a car in a 50-kilo load, our ability to stop 
that is very, very low at that point.
    When you interdict it at sea, there is no violence 
associated with that removal of 7,000 pounds of cocaine. When 
that cocaine hits the landmass, there is a lot of violence 
associated with that. There is a lot of graft and corruption 
associated with that, so the effectiveness is exponentially 
greater when we can push that border out and take that, you 
know, law enforcement endgame into the maritime domain.
    Admiral Michel. Let me just add one other little piece 
here. So I think you are probably aware, but in Mexico and 
Central America, a number of the countries down there have 
declared various states of emergency, and they have actioned 
their militaries to actually counter this, which is the number-
one threat that they face down there. They don't really have a 
nation state on nation state war problem, but they have a 
transnational criminal organization network.
    It should concern every American that the Mexican armed 
forces are having to be on the streets of Mexico taking on the 
cartels because their law enforcement has been completely 
outstripped by these criminal organizations.
    When you look at El Chapo Guzman, Los Cano Los Cano from 
the Zetas cartel, or Trevino Morales from the Zetas cartel, 
they were not taken down by Mexican local police or even 
Mexican Federal police. They were taken down by Mexican marines 
who were there trying to defend their country against these 
transnational criminal organizations who basically rot the 
state from the inside out through intimidation, corruption, all 
the different things that they do, and this is one of our 
closest neighbors.
    And Mexico is a serious country. And to have a situation 
caused, at least in part, because of what American citizens are 
putting up their noses, to create that type of a national 
security situation in one of our closest neighbors should be a 
concern to every American beyond the public health problems 
that it creates in this country.
    Ms. Frankel. OK. Thank you very much.
    Mr. Hunter. I thank the gentlelady. The gentleman from 
Louisiana is recognized.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. I 
appreciate it.
    Admiral, thank you very much. It is nice to see you. You 
clean up well. Your old commander threads till today, good to 
see you.
    First of all, there was a hearing that the chairman had 
worked out with the HASC [House Armed Services Committee] that 
we had back in March where, Admiral Michel, you were there. And 
the topic was different but the theme was exactly the same in 
that it was talking all about the total maritime force package 
and the role that the Coast Guard plays in that.
    We talked at length about the fact that the--that you are 
only as strong as your weakest link and that the Coast Guard 
plays a critical role in that overall maritime total force 
strategy or total force package. And so we are sitting here 
talking about your capabilities. And we are talking about your 
ability to actually perform the mission that you are tasked 
with, whether it is drug interdiction, alien interdiction, and 
many of the other missions that the Coast Guard has had heaped 
upon it over the last several years.
    One of the things that we talked about a little bit in the 
past, I am going to bring it up again, the OPC. Can you talk a 
little bit about its role in you carrying out your duties, 
whether it is under the Cooperative Strategy for 21st-Century 
Seapower or it is your drug and alien interdiction mission?
    Admiral Michel. Well, it is absolutely critical, sir, in 
that the OPC is the replacement for the Medium Endurance Cutter 
which is the bulk and real workhorse of the Coast Guard's 
fleet, and we have got about 25 in the program of record of the 
OPC. The OPC is a sea state 5----
    Mr. Graves of Louisiana. And I want to be clear, your MECs 
[Medium Endurance Cutters] are all aging out.
    Admiral Michel. The average age even if everything goes on 
schedule--average age for a 270-foot cutter when it comes off 
the line is 35, average age for a 210-foot cutter is 55.
    Mr. Graves of Louisiana. OK. So we are beyond service life.
    Admiral Michel. Yes, sir.
    Mr. Graves of Louisiana. You need the OPC. It is going to 
give you better capabilities. I don't want to put words in your 
mouth, if you could agree or disagree with that. Could you 
agree or disagree that the OPC is going to give you better 
capabilities?
    Admiral Michel. It does provide better capabilities. It is 
a modern system and it is a sea state 5 capable ship.
    Mr. Graves of Louisiana. And it does help you--and again, I 
am not trying to put words in your mouth. I am asking for 
confirmation. It does help you to achieve your objectives 
within the overall maritime mission that you are tasked with.
    Admiral Michel. No question.
    Mr. Graves of Louisiana. OK. So then we get to the budget 
request, and in the budget request, as we have just spoken 
about in the past, you have some very confusing language about 
no funding in there, but you are going to transfer funding, but 
you haven't identified the source, and I am not saying you, you 
understand, my friends at OMB, perhaps.
    Can you talk a little bit about, about how these things 
actually line up? I mean, how is it that you are going to be 
able to achieve your mission in working together with the Navy 
and the other armed forces, how is it that you are going to be 
able to carry out your mission with regard to drug and alien 
interdiction and other missions the Coast Guard is tasked with 
whenever you are dealing with equipment that is well beyond its 
projected service life and there are not funds in the budget 
for you to achieve--for you to acquire new resources?
    Admiral Michel. Yes, sir. I mean, that is the quandary in 
the world that I live in, and I will just give you an example. 
So on our 210-foot fleet, which is the older one, right now we 
lose about 20 percent of our scheduled time due to unscheduled 
maintenance, so these are, you know, major whole failures and 
other things that happen on that class of ship, and that 
situation only gets worse with time, so we need to replace 
that.
    And the OPC, you hit the nail on the head. The current plan 
is that there will be an internal transfer within DHS of the 
roughly $69 million we need to do to proceed with detailed 
design work.
    Mr. Graves of Louisiana. But we don't know which couch to 
flip it over to find that?
    Admiral Michel. I don't want to phrase it that way. Right 
now, the best that I have is I have assurances that that money 
transfer is going to take place and that the OPC is on 
schedule.
    Mr. Graves of Louisiana. One of the other things I am going 
to--I changed gears a little bit, but certainly the OPC's 
capabilities in regard to source and transit zones makes sense, 
but just quickly, Mr. Chairman, if it is OK. I am curious, 
could you talk a little bit about its capabilities and in terms 
of the Arctic and ops up there?
    Admiral Michel. Right. So part of the reason it needs to be 
a sea state 5 capable ship is because this is not a one-for-one 
replacement with the Medium Endurance Cutter fleet. As a matter 
of fact, the 210-foot and 270-foot cutters, basically we tried 
to work those up in Alaska, and that is just too much weather. 
The distances are too great, and the weather is just 
horrendous.
    So those ships really do not work, the 210-, 270-foot 
cutters up in the Bering. But because we are not a one-for-one 
replacement, we have got to have more flexibility with the--
where we can assign those ships, and with a sea state 5 capable 
ship, that OPC can actually operate on a seasonal basis up 
there in that Alaskan area where we need it.
    It is not going to be an ice capable ship or anything like 
that, but if you can understand that point, that is why we need 
sea state 5 capability because it is not a one-for-one 
replacement program.
    Mr. Graves of Louisiana. Sure. And it will work 
complementary to your new ice breakers that we will be 
acquiring sometime soon, correct?
    Admiral Michel. Well, I hope so, sir. I know they are kind 
of a twinkle in somebody's eye, and we should probably have 
some discussion about that, but yes, sir, they are all designed 
to work together as a system.
    Mr. Graves of Louisiana. Sure. Thank you, Mr. Chairman.
    Mr. Hunter. I thank the gentleman.
    The gentleman from Florida is recognized.
    Mr. Curbelo. Thank you very much, Mr. Chairman, for this 
hearing, and I thank Rear Admiral Schultz and Vice Admiral 
Michel for their presence here today. As the Representative 
from Florida's southernmost district, I have a very special 
appreciation for the Coast Guard and its mission. Thank you for 
keeping our people safe and secure.
    I am hoping you can address generally this phenomenon we 
are seeing of drug transit routes shifting to the Caribbean. 
Have you seen a spike in the past several years and what impact 
has this had on your budget?
    Admiral Schultz. Good afternoon, Congressman, and so good 
to see you, and thanks for your support of the men and women in 
JIATF South. I know you were down there as recently as April 
here.
    Mr. Curbelo. Yeah that is right.
    Admiral Schultz. I would say in terms of the shift to the 
Caribbean, we have seen a shift in recent years here. I think, 
A, that shift is attributable to some of the successes we have 
had along the Central American corridor. Writ large, about 80 
percent of the cocaine that comes out of the Indian Ridge 
destined towards the United States comes through the central 
corridor, Central American corridor, some in the Pacific, some 
in the western Caribbean, but as we have had successes there, 
as we partnered with the Hondurans, their maritime shield, I 
think it is the balloon effect. You know, the squeeze of the 
balloon in that region has pushed some more activity to the 
eastern Caribbean route there, so we are aware of that.
    I think at the end of the day when you are dealing with a 
finite number of ships, and you know, the Coast Guard currently 
in this fiscal year had 6 ships--6.2 ships committed to the 
whole JIATF mission set here, that is across the EASTPAC 
[eastern Pacific] and the Caribbean. The Navy has had one ship. 
So you are taking seven ships on a good day, maybe some 
partnerships, and you are spreading them around, you know, we 
put some energy towards--at the JIATF, we put some energy in 
that eastern Caribbean route, but when, you know, you are in 
the teens, percentagewise, versus knowing 80 percent of it's 
moving in either side of the Central American isthmus there, it 
is sort of a--it is sort of their decision.
    But that said, there's a lot of challenges in Puerto Rico 
with increasing violence. Puerto Rico has a homicide rate five 
times that of here in the States. Domestically it is about 5 
per 100,000 people. I think it is 25 per 100,000 there, weapons 
coming in. So we are very in tune with that. The Coast Guard 
has been working Operation Unified Resolve there, and I will 
defer to Admiral Michel for specifics there, but as we at the 
Southern Command are working with the new DHS joint task force, 
working with other participants there, working with NORTHCOM, 
because NORTHCOM really, from a geographic combatant commander 
standpoint, knows the Puerto Rico region, we are looking at how 
do we bring some energy to that challenge.
    Politically, that has been a very hot area, so we are aware 
of that. So there is success there, and there is challenge 
there, and we are trying to attenuate that with a finite amount 
of bandwidth.
    Admiral Michel. If I could just add a couple of points 
here. One thing we watch very carefully is Venezuela. I think 
you have seen Venezuela has got some stability issues, and 
unfortunately, the traffickers are exploiting that, so we have 
seen what Admiral Schultz mentioned there about additional 
flows coming out of Venezuela, and a lot of those impact the 
Dominican Republic and Puerto Rico and the eastern Caribbean, 
so we are going to have to watch that very carefully.
    Also adding onto Admiral Schultz, the standup of the 
Secretary of Homeland Security's new unity of effort joint task 
forces, of which Puerto Rico and southern Florida are all 
captured within what is called Joint Task Force East, which is 
actually dual hatted with our land area commander up in 
Norfolk, but they bring the entire DHS family together, so CBP, 
ICE [U.S. Immigration and Customs Enforcement], Coast Guard, 
the other supporting elements, all in the unity of effort 
format, along the lines of JIATF, if you know the way that they 
work, where they truly have a unified chain of command. This is 
not a sort of coordination element. This is real command and 
control from the Department of Homeland Security, and we are 
looking for great things from them along those vectors 
stretching into Puerto Rico and also south Florida. We are also 
watching the Cuba situation like we always do. Right now the 
Cuban Government is pretty good counterdrug, but we are going 
to have to see if that changes over time, but we watch that 
very carefully, sir.
    Mr. Curbelo. Since you mentioned Cuba, and with the 
chairman's dispensation because it doesn't have to deal 
specifically with drug trafficking, but we have seen a spike in 
migrant movement from Cuba to the United States. Do you 
attribute that to something specifically, and do you feel that 
you are prepared at this time for a potential mass migration of 
them?
    Admiral Michel. We did see a spike here at the end of last 
year and into the beginning of this year, and when we 
interviewed the migrants, they said we heard that the wet foot/
dry foot policy was going to be changing, so we want to make 
sure we got there. We have had a public relations campaign out 
there telling people that that is not true and making sure that 
they understand what the facts are.
    And here over the summer, I think it has been relatively 
stable within kind of historic norms. And as always, we are 
ready for a mass migration, sir, and we watch that all the time 
and watch very carefully indicators and warnings both there and 
also in Haiti, the Dominican Republic, and those vectors where 
we have got some issues percolating. So we watch that very 
carefully, but we are ready with our Homeland Security Task 
Force Southeast, which is specifically designed to deal with 
these mass migration events.
    Mr. Curbelo. Thank you both. Thank you, Mr. Chairman.
    Mr. Hunter. I thank the gentleman. We are going to keep 
going here. We had really great participation today. You get 
more and more popular the more you come back, people start to 
like you. We will have full subcommittee here in a couple of 
years.
    Let me ask you about the NSC [National Security Cutter] 
really quick. You have a gap. You have a gap between now--
between this year and 2018 where you're not working on 
anything. Well, you are working on the OPC design stuff but you 
have a gap. There are some folks in this Congress and in this 
Senate that want to fill that gap for you with an extra NSC. 
What do you feel about that? And then if you would, not just 
say how do you feel about it, how would it--how would it affect 
drug interdiction ops; in SOUTHCOM, what would it do for you; 
could you use it? Could SOUTHCOM use it? I mean, you might have 
to take off your Coast Guard hat and put on your SOUTHCOM hat, 
and SOUTHCOM probably wants that ship.
    Admiral Schultz. Sir----
    Mr. Hunter. But the Coast Guard may not.
    Admiral Schultz [continuing]. All day. Any ship, Coast 
Guard ship, Navy ship, is value add for the equation.
    Mr. Hunter. OK. Got that one.
    Admiral Michel. Easy for him to say. He doesn't have to pay 
the bills.
    But, no, the NSC is an incredible ship, sir. It is the most 
capable ship the Coast Guard has ever had. We are ecstatic with 
the NSC. And I just want to go on the record. Same time, it is 
not within our program of record, and we designed our program 
of record to be affordable and best meet our needs, and that 
ninth NSC is not a part of that.
    And we cannot allow that to interfere with our other 
programs because, for example, on the OPC, that is the 
workhorse of the fleet, much cheaper ship to operate, plus it 
is smaller and can get into some of the dock spaces and things 
that we have. The NSC is just a much bigger ship, and that is 
why it was not a part of the program of record. Not because it 
is a great ship, but it is not within our affordability 
characteristics.
    And, obviously, if someone were to give one of those to 
us--and I hope it would not interfere with the other things 
that we need in the system--then your Coast Guard stands ready 
to use that ship, sir.
    Mr. Hunter. If you get a ship like that, do you actually 
see the needle move, depending on how much you interdict based 
off of a ship like that that has as much capability as it has?
    Admiral Michel. Sir, that is the best ship available. I 
won't use the word ``Cadillac,'' sir, because I know you called 
me on that last time. But the NSC has the best sensor 
capabilities, the best command-and-control suite, operates the 
best helicopters, and is the best that we have in the fleet. It 
has got the endurance. It has got the speed. If you were to 
design a ship to work in this mission set, it would be the NSC.
    So it is the best that we can possibly bring to the fight, 
but it is also expensive. And its magnitude is more expensive 
than the OPC, which won't have as many capabilities but 
hopefully will have more of them.
    That kind of goes to Ms. Frankel's question of a balance 
between quality and quantity at a certain level, and we tried 
to do that in our program of record in addition to making sure 
the program is affordable.
    Mr. Hunter. The Coast Guard has built the Navy's littoral 
combat ship for them. And we are all very thankful. When we 
copy that and take it from you to give to the Navy, I think 
they will be appreciative.
    Admiral Michel. I wish they would send me a thank-you note, 
sir.
    Mr. Hunter. I want to get back if we could just really 
quick to when we were talking about levels of capability and 
your internal performance targets in the very beginning, right. 
Can you go through how you set those, just, you know, from the 
ground up for me?
    Admiral Michel. Well, the Office of the National Drug 
Control Policy sets what the national goal is, and it is----
    Mr. Hunter. Forty percent?
    Admiral Michel. Well, it is 36 percent in 2015, 40 percent 
in 2016, and that is along the formulas we describe, their sort 
of known interdiction versus the known flow, and there are 
formulas that underlie each one. So they sent----
    Mr. Hunter. Wait, let me ask, do they tie that to your 
capability, or do they just come up with that based on there is 
going to be more drugs coming across so we are going to up you 
4 percent as our target or up the entire thing 4 percent?
    Admiral Michel. No, sir. It was actually a result of a 
study done a number of years ago that actually brought in some 
economists and some very smart people and came to the 
conclusion that if you could interdict 40 percent of the 
cocaine flow--and they were looking at the cocaine trade--that 
you could actually force the traffickers to change their 
business model in a radical method. And there is actually an 
intellectual basis for why that 40 percent was set that way.
    Then it was negotiated amongst the interagency partners as 
to what were achievable goals for each year in order to get to 
that 40 percent. And there were studies done specifically on 
what it would take for the maritime interdiction forces to get 
to that 40 percent. And the study, my recollection, and I 
looked at the study when I was in JIATF South is that they 
figured that we would need about 16 ships in order to do the 40 
percent, at the time that study was done. Now, this was done a 
number of years ago.
    Now, some things have changed. The ships have gotten 
better. The technology has gotten better. The intelligence 
capabilities have gotten better. So 16 ships is probably an 
overstatement, in my opinion, up to this point, but even now, 
we are not fielding anything even approaching 16 ships in order 
to get down there at the 40 percent that need to be done. So 
there is analysis behind all that. And it is also run through 
an interagency negotiation process based on historical data. 
And that is where you come up with the Coast Guard's 
contribution.
    And when you look at that historical data for our 
contribution of the removal, it converts directly into our 
resource commitments to the fight and what we think we can 
provide to the fight and what type of capabilities we can 
provide to the fight. Again, there is pretty good historical 
data that over a number of years, that for each capital ship 
that is put downrange by the U.S.--and also some of our 
foreign, the high-end foreign partners--1 year of ship effort 
is about 20 metric tons removed. So you can kind of do the math 
from there.
    Now, part of it is beyond our control, you know, how much 
the traffickers plant, how much they move that year, what their 
production estimates, how much they decide to send to the U.S. 
and how much they decide to send to other global markets. So it 
is a difficult problem set, and recognize, the adversary does 
everything possible to keep all this from us. I mean, they want 
this all to remain in the dark. So it is based on our best 
estimates.
    Mr. Hunter. So your numbers going down from 18.5 percent to 
13.8 percent over 5 years, that is based on what you had to do 
the job with. Is that how it goes?
    Admiral Michel. That is based on the Coast Guard 
commitment, yes, sir. That is what we sign up for in order to--
our portion of the national goal for the removal rate in the 
Western Hemisphere Transit Zone and then that converts into the 
number of assets we can put into the fight, which varies. 
Sometimes our assets get pulled off in different directions. 
Sometimes we can do more. Sometimes we can do less.
    Mr. Hunter. So what made it drop from 18 percent to 13 
percent?
    Admiral Michel. Ship effort. It is pretty simple math from 
a Coast Guard perspective, sir. It is just--it is the number of 
ships and capable ships that are brought into the fight.
    Mr. Hunter. Let me ask you a question that I am just 
curious about: Has the Pacific shift for the Navy to Asia had 
any play at all in anything that happens in your AO [area of 
operation]?
    Admiral Michel. I will let Admiral Schultz jump in here, 
but just from a Coast Guard perspective, our admiral, Admiral 
Zukunft, talks specifically about this. And he understands the 
geostrategic perspective and understands the Navy gets pulled 
in a lot of different directions, and that is specifically why 
he committed additional Coast Guard resources to the Western 
Hemisphere Transit Zone. He said: This is an area where I can 
provide unique capability and be complementary to the other 
geopolitical moves that the combatant commanders are putting in 
place.
    Mr. Hunter. So just, if I could dovetail with that too, 
then does the Coast Guard see a place for itself in the 
Pacific, in the South China Sea, as opposed to the Navy? 
Because our fellow peer nation in that area uses their Coast 
Guard for that exact thing.
    Admiral Michel. I get asked that question all the time, 
sir. Unfortunately, with every single combatant commander, 
there is more demand out there and more relevance for the Coast 
Guard than there is Coast Guard. And our Commandant has been 
specifically asked to provide resources to not only PACOM 
[Pacific Command] but all the other combatant commanders. And 
right now his best judgment is our Coast Guard resources are 
going to be put in the Western Hemisphere Transit Zone because 
this is an area of regional stability and national security 
where the Coast Guard can provide unique benefit to the Nation.
    And that is his judgment. But it is a risk calculation, no 
question about it. The Coast Guard is increasingly relevant in 
the area, and when you see the bumping and all the other things 
going on, they are Coast Guard boats and typically not gray 
hulls doing that stuff, sir.
    Mr. Hunter. Admiral Schultz.
    Admiral Schultz. Congressman, the only thing I would add to 
that, you know, the pivot to the Pacific obviously is the 
demand signal there. I think there is also sort of the perfect 
storm of the decommission of the fast frigates from a budgetary 
standpoint. The Perry-class frigates, the last one is on patrol 
today. Once that ship finishes up her current JIATF patrol, we 
won't see any frigates here for the foreseeable future.
    The LCSs, littoral combat ships, which have been renamed 
the frigates, will probably not come to the SOUTHCOM AOR for 3 
to 5 years here, given that pivot to the Pacific and the rate 
of recapitalization.
    Mr. Hunter. With that, the ranking member has no more 
questions. I have no more questions, unless you have any 
closing comments you would like to give.
    Mr. Graves of Louisiana. Mr. Chairman.
    Mr. Hunter. Oh, I am sorry. Go ahead. Gentleman from 
Louisiana.
    Mr. Graves of Louisiana. Thank you. Thank you very much.
    Admiral Schultz, you just talked about the decommissioning 
of the frigates, and as I recall, I believe you have three that 
are being decommissioned now that does affect your area of 
operation. I am just continuing this theme. You talked earlier 
about the inability to meet the Office of National Drug Control 
Policy's target of 40 percent. You are losing frigates. You are 
not budgeting for new capabilities. Your AC&I [acquisition, 
construction, and improvements] account is going down not up. 
Can you comment on the conditions on the ground and how it 
affects your mission?
    Admiral Schultz. Well, I would say from the SOUTHCOM 
commander's perspective, you know, capacity is the spigot, you 
know. We still operate with that 16 number that Admiral Michel 
talked about, three large cutters, which would be, you know, 
your National Security Cutter, your former High Endurance 
Cutters or maybe a cruiser, destroyer from the Navy. And 13, 
those would be your to be built OPCs, currently the Medium 
Endurance Cutters; those were the Perry-class frigates.
    So, at the end of the day, it is about capacity from a 
SOUTHCOM perspective. And, you know, that ship with a 
helicopter, with the ability to launch a small boat, the 
ability to move around agilely within the AOR, which translates 
to a Coast Guard cutter, a Navy ship, some of our high-end 
partners, you know, you associate a number about 20 million--or 
20 metric tons, as Admiral Michel talked about. It is a math 
equation.
    Mr. Graves of Louisiana. I certainly don't want to get 
anybody in trouble here, but is there a way that you can 
carefully answer the question about, you have got a major loss 
of connectivity here. Again, heaping missions upon you, setting 
targets that I am confident if you were properly capitalized, 
you could achieve, yet they aren't providing the resources for 
you to actually do that. Where do you see the lack of 
connectivity here?
    Admiral Schultz. Well, I think, sir, the lack of 
connectivity is clearly budgetarily related. I think where we 
focus our efforts at Southern Command, I think where the Coast 
Guard does is, you know, how do you work as smart as possible 
within the workspace you have while you wait for the 
recapitalization of new ships?
    You know, we look at a resource like the Joint STARS, which 
flies maritime patrol capability. One Joint STARS flight 
equates to about 10 P-3 flights. It can surveil that much ocean 
on one mission here. We will fly that sometimes in conjunction 
with a B-52 or another type of bomber. Sometimes they will fly 
solely. We could fly a Joint STAR on the Caribbean base, and 
they could actually see traffic in the eastern Pacific.
    So there's the capacity piece on the surface side, which I 
talked about. There's other ways to, you know, stay in the game 
and work smarter with what you have here and pray for better 
days for more ships to come to the future. I would tell you, 
there is no bigger advocate to endorse the Coast Guard's 
recapitalization needs because of the challenges we have. And, 
again, it is transnational organized crime.
    Mr. Graves of Louisiana. Sure.
    Admiral Schultz. We can take the discussion down to just 
drugs, but it is about regional stability. And the Coast Guard 
presence down there, the Navy ships with LEDETs [law 
enforcement detachments], they are all about, you know, 
bringing some sanity to that challenge there.
    Mr. Graves of Louisiana. So you said it is Admiral Michel's 
fault?
    Admiral Schultz. Congressman, you said that, not me. I may 
need to go back and work for the Coast Guard.
    Mr. Graves of Louisiana. No, Admiral, look, I just want to 
be clear. Every hearing that we have, I think that a number of 
us are going to continue to pound that theme. There is a lack 
of connectivity here. You are being tasked with missions--we 
described you as a Swiss Army knife at the HASC hearing in 
regard to all the missions that are being heaped upon you. You 
are not being capitalized. There is a loss of connectivity 
between the work that you are being tasked with and the 
resources of the capitalization that you are being given.
    You have got a great workforce. The men and women of the 
Coast Guard--and I will put my oil spill comments aside for 
just a minute--are some great people that work incredibly hard. 
And I am confident, if given the proper resources, they could 
hit the targets that you put in place.
    I just want to make sure that you are continuing to beat 
the drum up your chain of command. We obviously are continuing 
to do the same thing. I am looking forward to the 
appropriations bill when it comes to the floor because I think 
we have got some priorities that need to be addressed.
    Let me ask you one last question. The chairman and 
Congressman Sanford both addressed the issue of when you have 
open lanes, you can send anything through them, whether it is 
aliens, whether it is drugs, whether it is a terrorist or 
weapons or what have you. I assume you would agree with that?
    Admiral Michel. Absolutely, sir. Just take a look at that 
picture of that self-propelled semisubmersible. My guess is 
that probably has a carrying capacity of maybe 5 to 7 metric 
tons of anything that you want, and it can approach the United 
States almost undetectable. Most of those SPSSs--now, they are 
kind of in version four of those things--3,500-, 4,000-mile 
range, you know, the fact that we have sort of through our 
consumption patterns allowed the creation of really a bad guy 
battle lab for the development of these dark highly mobile 
asymmetric maritime targets should concern everybody.
    Mr. Graves of Louisiana. And do you often see comingled 
loads, meaning drugs and aliens together and things like that?
    Admiral Michel. Actually, rarely. We do see comingled drug 
loads. So we just had a load of heroin and cocaine. But, 
interestingly, typically, you will either get a drug boat or 
you will get a migrant boat.
    Mr. Graves of Louisiana. OK.
    Admiral Schultz. And, Congressman, one thing the DEA has 
said publicly, I think it is 27 of 54 known terrorist 
organizations have proven links through drug trafficking. So 
there is clearly that nexus of, you know, transnational 
organized crime, illicit drug trafficking, and the potential 
for more nefarious activities.
    Mr. Graves of Louisiana. Sir. Thank you all very much.
    Thank you, Mr. Chair.
    Mr. Hunter. Thank you.
    One last question here. Marijuana, so say that you 
legalized weed throughout the entire country, right. Would that 
have any impact whatsoever on what you are doing?
    Admiral Michel. It is hard to say under what circumstance 
they would be legalized. As long as the traffickers can make a 
profit, they are going to be there. I mean, this goes to Mr. 
Sanford's question. You know, if they can undercut the 
marijuana market by growing marijuana overseas and putting it 
in the United States, even under a legalization scheme where 
you pay more, my guess is they would probably do it. I mean, 
that is--traffickers are going to make money.
    Mr. Hunter. Well, what would it do? Because you interdict 
more cocaine than anything else, right? But that is also what 
you are trying to interdict more of, correct?
    Admiral Michel. Absolutely. Cocaine really is the money 
product. And a lot of the problems in Central America, it is 
not because of marijuana that is being dragged across there. 
Most of the marijuana is being made in the U.S. or Mexico or 
somewhere like that. It is because of the cocaine trade that 
exists here, and it is so insidious because it is a very high-
value, very small product.
    You have got to smuggle a lot of marijuana to make the same 
amount in cocaine, and that makes it more vulnerable, makes it 
more vulnerable to border tactics, like fences, makes it more 
vulnerable in the panga arena--I know that you are aware of--in 
San Diego and things. But the cocaine is incredibly dangerous. 
And once it gets past the JIATF forces and the Coast Guard 
forces down there, it is basically done. You are not going to 
get it.
    When I was JIATF South Director, the average cocaine 
seizure, which was pretty rare on the Southwest border, was 4 
to 7 kilos. A major seizure was 40 kilos. That one 
semisubmersible that I showed you there, 3,000 kilos. And you 
got that on the water before it got into Mexico and corrupted 
that government official, killed that kid in the drive-by 
shooting, plus you have got witnesses and evidence that can 
actually get you to the kingpins, so the head of the network 
that set all that stuff in motion. So it is the beauty of 
maritime interdiction. And so traffickers will make money if 
there is money to be made, sir.
    Admiral Schultz. Congressman, I think when we had the 
conversation about the violence, the judges, you know, I think 
for my boss, General Kelly, when he is down there talking to 
the CHODs [chiefs of defense], the ministers of defense, the 
MODs, I think there is a certain level of credibility here, you 
know, when they look at him and say: Well, General, your 
country is legalizing marijuana. You know, how committed are 
you to this fight here? You know, we have got our frontline men 
and women, whether that is law enforcement folks, whether that 
is their military because they have to bring their military to 
establish some security, it creates a bit of a credibility gap 
that the U.S. Government is truly committed to the fight.
    Mr. Hunter. Last question I have. Have you seen full 
submersibles now? Because I think I was watching something, it 
was either ``Vice'' on HBO or some documentary, where they had 
the full submersibles.
    Admiral Michel. Yes, sir. As a matter of fact, I toured a 
fully submersible vessel that was seized by the Colombian Navy, 
with some help from the United States, at its construction site 
in Bahia Malaga, Colombia. I have toured that vessel. That 
vessel is capable of going from Colombia to Los Angeles 
unrefueled in a snorkeling state.
    We also seized a semisubmersible in San Lorenzo, Ecuador, 
in 2010. That is a fully submersible craft that can operate 
under the water. I can talk to you more offline about the 
operating characteristics, but that can carry 7 to 10 metric 
tons of anything that you want basically undetected from 
Ecuador to Los Angeles.
    Mr. Hunter. OK. So let's step away from SOUTHCOM totally. I 
am just curious, when does the Coast Guard realize that you 
got--you will have multinational, you know, terrorist 
organizations mixed with really easy to make full submersibles, 
where you can drop off anybody and anything, when do those two 
things come together for you?
    Admiral Michel. Well, I will let Admiral Schultz talk a 
little bit more about the terrorist connections, but the FARC 
[Revolutionary Armed Forces of Colombia], for example, which is 
declared a terrorist organization, is a drug-trafficking 
organization, and they are the ones who financed the 
semisubmersible construction, a large number of those things. 
So you already have that convergence, sir. It is already there.
    Mr. Hunter. But the FARC likes to have power and make 
money, right. They don't necessarily want to kill a million 
Americans so they can go see their God, right? That is the 
difference between radical Islam that I am talking about and 
bad crime organizations. Or, I mean, to a certain extent, I 
think I am correct there.
    Admiral Michel. I am not willing to put my trust in the 
FARC, sir.
    Mr. Hunter. OK.
    Admiral Schultz. And I think Congressman, you know, when 
you look at that convergence, I think if you look to Latin 
America, you know, within South America, you have upwards of 
75, 80 cultural centers, Iranian cultural centers. I think you 
have a Lebanese Hezbollah center of gravity there where I think 
there is indications that they are raising tens of thousands, 
you know, tens of millions of dollars there. You know, is it 
just fundraising and money that goes back to Libya? You know, 
do they have other activities afoot? You know, do we have any 
connection to IJO type activities?
    You know, I think, we watch that. And one of our challenges 
at SOUTHCOM is we get a fairly small percentage of the overall 
DOD ISR. So our challenge is, we don't know what we don't know. 
But with what we have, we try to, you know, stay aware of the 
transnational organized crime, but we are also paying attention 
to, you know, what threats on the counterterrorism front are 
potentially, you know, to our southern flank there.
    Mr. Hunter. Would it be fair to say that you would be the 
first ones to know if some folks out of the Middle East started 
using these tactics?
    Admiral Michel. I think that that is fair to say, sir. The 
enterprise that we have arrayed here before you really is the 
early warning sensor for the entire sort of southern approaches 
to the United States. We are it.
    Mr. Hunter. Thank you very much. This is probably one of 
the most informative, interesting topics in hearings that we 
have had.
    So thank you both, gentlemen. Appreciate it.
    And, with that, we are adjourned.
    [Whereupon, at 3:33 p.m., the subcommittee was adjourned.]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
</pre></body></html>
